U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 8, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Terrance Nathaniel Brown, Jr. v. United States of America,
S.Ct. No. 20-6374

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 13,
2020, and placed on the docket on November 18, 2020. The government’s response is due on
December 18, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

